handles the administrative aspects of the travel card program for PWBA nationwide. Currently
there are eight OASAM A/OPCs that administer the travel card program for PWBA.

In order to determine whether the Department had adequate internal controls to address travel
card abuse and delinquency issues in PWBA, we examined Citibank transaction and
delinquency data from April 1, 2000 to March 31, 2001. Our review of the transaction data
indicated that PWBA employees conducted over 22,000 transactions during that period. These
transactions accounted for approximately 10% of the total transactions (229,824) reviewed by
A/OPCs nationwide. In addition to looking at agency transaction and delinquency data, we
interviewed DOL’s Travel Card Coordinator, appropriate OASAM A/OPCs, and PWBA
management and staff. We also reviewed pertinent federal laws and regulations, as well as
DOL and Citibank guidelines and training materials. We conducted this evaluation in
accordance with the Quality Standards for Inspections published by the President’s Council on
Integrity and Efficiency.

                                           FINDINGS

Finding A:    OASAM A/OPCs’ Review and Monitoring of PWBA Travel Card Transactions
              is Inconsistent

OASAM A/OPCs help to manage the day-to-day operations of the travel card program for
PWBA. One key responsibility of the A/OPC is to review and monitor delinquency and
transaction activity of employees. We noted that OASAM A/OPCs provide inadequate review of
PWBA travel card transactions. Further, OASAM A/OPCs varied greatly in how they addressed
possible abuse once it was identified. A/OPCs need additional guidance in these areas from
OCFO and OASAM in order to improve the thoroughness of the review and eliminate disparate
treatment based on which OASAM A/OPC reviews a PWBA employee’s account.

Based on interviews with PWBA regional directors and our analysis of the transaction and
delinquency data, we concluded that PWBA managers were not adequately apprised of the
extent of possible travel card abuse in the agency. We believe the lack of clear
procedural/referral guidelines from the Department to the A/OPCs contributed to (1) disparate
levels of reviews, (2) “de facto” criteria being used by A/OPCs, and (3) the abuse not being
properly documented.

PWBA’s transaction data indicated that the largest percentage of the employees’ transactions
was under the category of purchases, which primarily involves lodging and passenger
transportation transactions. However, we also identified a large number of transactions that
indicated employees used their cards for personal use, which is prohibited by regulation. We
identified transactions such as medical services; clothing stores (Victoria’s Secret, Nordstrom,
and Macy’s); miscellaneous retail purchases (Old Navy, Levi’s, Banana Republic); and variety
stores (Target, Wal-Mart, Walgreens).


Finding B:    PWBA Employees Are Not Receiving Adequate Information About the
              Travel Card Program

PWBA Management should work with OCFO/OASAM to ensure that their employees are
provided with adequate information regarding proper use of the travel card. Existing practice


                                                2
includes Citibank sending an employee a cardholder agreement with the government travel
card. In addition, the Department distributes bi-annually a memo (Spotlight) explaining proper
employee conduct and responsibilities with regard to travel card use and payment. More
recently, PWBA issued a memorandum to all PWBA employees which reminded them that the
use of the travel card for personal purposes is prohibited and of employees’ obligation to make
payments by due dates. We agree that the current process provides valuable information;
however, we believe that PWBA employees need additional travel card information.

PWBA should work with the Department to develop informational material that gives the
employee examples of what constitutes authorized and unauthorized use of the government
travel card. PWBA should also establish an annual process aimed at reminding all employees
and supervisors of their respective roles and responsibilities in relation to the travel card. For
example, providing this instruction during routine orientation and ethics training. While it is
unlikely that delinquency or all cases of misuse can be attributed to ignorance, better training
could ensure that lack of knowledge is not an issue.

PWBA employees should be informed that their transactions are being reviewed and what
actions will be taken if they misuse their cards or are delinquent making payments.


FINDING C: PWBA Management Does Not Have Sufficient Guidance On How To
           Apply Disciplinary Policies to Travel Card Misuse and Delinquency

PWBA management should work with OCFO/OASAM to develop guidelines for managers on
how to apply the Standards of Ethical Conduct for Employees of the Executive Branch to
unauthorized use of the travel card and/or delinquency. Currently, there is inadequate
Departmental guidance for PWBA program managers on how disciplinary policies apply to
these areas. While A/OPCs can cancel cards, this alone is not a deterrent to misuse and
delinquency. Travel card misuse and delinquency may be indications of larger employee
problems and should not remain unaddressed.

Because of the lack of clear guidance, we found inconsistency in the process OASAM A/OPCs
use to refer possible misuse and travel card abuse to PWBA management. In some instances,
the OASAM A/OPCs notified the Regional Directors of possible abuse; at other times OASAM
A/OPCs notified the employees and/or the employee and their supervisors. Once an OASAM
A/OPC has identified a problem that needs to be referred to PWBA, agency management is
responsible for taking appropriate corrective action. Most of the Directors told us they informally
(verbally) address the identified abuse with the employee and/or supervisor. Management
indicated the problem was usually resolved. Our review of the data indicated that several
employees repeatedly abused the card, yet many of these employees had not been disciplined
by management. One PWBA official cautioned us that notifying supervisors at the first
occurrence of possible abuse could put a strain on the employee-supervisor relationship. We
believe it is paramount that PWBA Management work with OASAM A/OPCs to establish a
standardized notification process and a formal reporting chain for all levels, including referrals to
top-level management. Further, PWBA and OASAM A/OPCs should maintain documentation
on the reason for the misuse and how the situation was resolved. This feedback would serve as
a means to document the disciplinary process.




                                                  3
As new initiatives and corrective actions are implemented by OCFO/OASAM to allow agencies
to be fully aware of their rights and responsibilities under the travel card program, regional
directors will have a policy to effectively implement disciplinary actions for travel card abusers.


                                  _________________

We encourage PWBA management to take an active role in working with OCFO/OASAM to
improve the travel card program and reduce travel card misuse and delinquency. We
understand that it will take OCFO/OASAM time to implement these various changes to the
administration of the travel card program; notwithstanding that, PWBA should continue to take a
proactive role in ensuring that PWBA employees understand that misuse and delinquency is
taken seriously and that there are consequences for inappropriate actions.

We appreciate the time and cooperation we received from your staff during this review. Please
do not hesitate to address any questions regarding this report to Gregory Simmons, Director,
Division of Program Evaluations at (202) 693-5215.


cc:    Susan Ugelow
       Brian McDonnell




                                                 4
